<html>
<title> - NEXT STEPS FOR K-12 EDUCATION: IMPLEMENTING THE PROMISE. TO RESTORE STATE AND LOCAL CONTROL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     NEXT STEPS FOR K-12 EDUCATION:
                      IMPLEMENTING THE PROMISE TO
                    RESTORE STATE AND LOCAL CONTROL

=======================================================================

                               HEARING

                             BEFORE THE

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 10, 2016

                               __________

                           Serial No. 114-38

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                              ____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
98-524 PDF                    WASHINGTON : 2016                      
                
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3a4b3ac83a0b6b0b7aba6afb3eda0acaeed">[email&#160;protected]</a>  
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                
                                
                                ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Marcia L. Fudge, Ohio,
Glenn Thompson, Pennsylvania           Ranking Minority Member
Dave Brat, Virginia                  Susan A. Davis, California
Buddy Carter, Georgia                Raul M. Grijalva, Arizona
Michael D. Bishop, Michigan          Gregorio Kilili Camacho Sablan,
Glenn Grothman, Wisconsin              Northern Mariana Islands
Steve Russell, Oklahoma              Suzanne Bonamici, Oregon
Carlos Curbelo, Florida              Mark Takano, California
                                     Katherine M. Clark, Massachusetts
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 10, 2016................................     1

Statement of Members:
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     2
    Fudge, Hon. Marcia, L., Ranking Member, Subcommittee On Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Almazan, Selene, A., ESQ., Legal Director, Council of Parent 
      Attorneys and Advocates, Inc., Towson, MD..................    17
        Prepared statement of....................................    19
    Hofmeister, Joy, Superintendent of Public Instruction, 
      Oklahoma State Department of Education, Oklahoma City, OK..    06
        Prepared statement of....................................    09
    Talbert, Kent, D., Attorney at Law, Law Office of Kent D. 
      Talbert, PLLC,Washington, D.C..............................    27
        Prepared statement of....................................    29
    Wilson, Paul, V., Superintendent, Hartselle City Schools, 
      Hartselle, AL..............................................    13
        Prepared statement of....................................    15

Additional Submissions:
    Ms. Fudge:
        Letter dated January 21, 2016, from The Council of Parent 
          Attorneys and Advocates, Inc...........................    85
    Chairman Rokita:
        Letter dated February 10, 2016, from a coalition of 
          groups.................................................    82
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        NEAP test................................................    72
    Mr. Talbert:
        Supplemental response....................................    58
    Questions submitted for the record by:
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the state of Oregon....................................    97
        Polis, Hon. Jared, a Representative in Congress from the 
          state of Colorado......................................    99
    Response to questions submitted for the record:
        Ms. Almazan..............................................44, 65
        Mr. Wilson...............................................   101

 
        NEXT STEPS FOR K-12 EDUCATION: IMPLEMENTING THE PROMISE.
                   TO RESTORE STATE AND LOCAL CONTROL

                              ----------                              


                      Wednesday, February 10, 2016

                       House of Representatives,

            Subcommittee on Early Childhood, Elementary, and

                          Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.


    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Thompson, Carter, 
Grothman, Russell, Fudge, Davis, Bonamici, and Clark.
    Also Present: Representatives Kline, Scott, and Polis.
    Staff Present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Amy Raaf 
Jones, Director of Education and Human Resources Policy; Nancy 
Locke, Chief Clerk; Dominique McKay, Deputy Press Secretary; 
Brian Newell, Communications Director; Krisann Pearce, General 
Counsel; Mandy Schaumburg, Education Deputy Director and Senior 
Counsel; Alissa Strawcutter, Deputy Clerk; Juliane Sullivan, 
Staff Director; Leslie Tatum, Professional Staff member; Brad 
Thomas, Senior Education Policy Advisor; Sheariah Yousefi, 
Legislative Assistant; Tylease Alli, Minority Clerk/Intern and 
Fellow Coordinator; Austin Barbera, Minority Staff Assistant; 
Jacque Chevalier, Minority Senior Education Policy Advisor; 
Denise Forte, Minority Staff Director; Brian Kennedy, Minority 
General Counsel; Kiara Pesante, Minority Communications 
Director; Saloni Sharma, Minority Press Assistant; Michael 
Taylor, Minority Education Policy Fellow; and Arika Trim, 
Minority Press Secretary.
    Chairman Rokita. Good morning. A quorum being present, the 
Subcommittee on Early Childhood, Elementary, and Secondary 
Education will come to order.
    I want to welcome everyone to the first subcommittee 
hearing of the new year. After replacing No Child Left Behind 
at the end of 2015, I think it's only fitting to kick off 2016 
with a conversation about what happens next.
    After years of flawed policies and Federal intrusions into 
the Nation's classrooms, Congress passed the Every Student 
Succeeds Act based on the principle that responsibility of K-12 
education must be returned to State and local leaders. The new 
law repeals onerous Federal requirements and ensures important 
decisions that affect education, like standards, 
accountability, school improvement, are made by State and local 
leaders, not Washington bureaucrats.
    That's why the Wall Street Journal editorial board 
described the legislation as, quote, ``the largest devolution 
of power to the States in a quarter-century,'' unquote, and why 
the National Governors Association lauded the new law as a, 
quote, ``historic moment in ensuring children's future success 
in the Nation's schools,'' unquote.
    There's no question that replacing No Child Left Behind was 
an important achievement, one that will improve K-12 education 
for students and families. But our work is far from finished; 
in fact, it's just beginning. Over the last several years, the 
administration has routinely taken a top-down approach to 
education, imposing on States and school districts a backdoor 
agenda that has sparked bipartisan opposition and harmed 
education reform efforts.
    The passage of the Every Student Succeeds Act puts States 
and school districts back in charge of education and includes 
more than 50 pages of provisions to keep the Department of 
Education in check. For example, the law protects the right of 
State and local leaders to determine what standards, 
assessments, and curriculum are best for their students and 
ensures State and local leaders are responsible for 
accountability in school improvement.
    Now, moving forward, it's going to be our collective 
responsibility to hold the Department of Education accountable 
for how it implements the law. This is what Congress does and 
is supposed to do. Congress promised to restore State and local 
control over K-12 education, and now it's our job to ensure 
that promise is kept.
    Hearing from you, the very leaders we want to empower, is a 
critical part of that effort. What role do State and local 
leaders play in implementing the law is a question. What 
challenges do you anticipate State and school districts may 
face is another question. How can the Department provide the 
increased flexibility and autonomy State and local leaders were 
promised and now expect?
    Today's conversation is one of many steps we plan to take 
to ensure the Department upholds the letter and spirit of the 
law that we passed and that the President signed, and answers 
to these questions will inform our efforts moving forward. It's 
my firm belief that when the Every Student Succeeds Act is 
implemented as Congress intended, parents, teachers, and State 
and local leaders will be empowered to deliver the excellent 
education, in fact, every child deserves.
    With that, again, I welcome everybody and will yield to 
Ranking Member Fudge for her opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, everyone, and welcome to our first subcommittee 
hearing of the New Year. After replacing No Child Left Behind at the 
end of 2015, it's only fitting to kick off 2016 with a conversation 
about what happens next.
    After years of flawed policies and federal intrusions into the 
nation's classrooms, Congress passed the Every Student Succeeds Act 
based on the principle that responsibility of K-12 education must be 
returned to state and local leaders. The new law repeals onerous 
federal requirements and ensures important decisions affecting 
education--like standards, accountability, and school improvement--are 
made by state and local leaders, not Washington bureaucrats.
    That's why the Wall Street Journal editorial board described the 
legislation as ``the largest devolution of power to the states in a 
quarter century'' and why the National Governors' Association lauded 
the new law as ``an historic moment in ensuring children's future 
success in the nation's schools.''
    There is no question that replacing No Child Left Behind was an 
important achievement, one that will improve K-12 education for 
students and families. But our work is far from finished. In fact, it 
is just beginning.
    Over the last several years, this administration has routinely 
taken a top-down approach to education, imposing on states and school 
districts a backdoor agenda that has sparked bipartisan opposition and 
harmed education reform efforts.
    The passage of the Every Student Succeeds Act puts states and 
school districts back in charge of education, and includes more than 50 
pages of provisions to keep the Department of Education in check. For 
example, the law protects the right of state and local leaders to 
determine what standards, assessments, and curriculum are best for 
their students, and ensures state and local leaders are responsible for 
accountability and school improvement.
    Moving forward, it's our responsibility to hold the Department of 
Education accountable for how it implements the law. Congress promised 
to restore state and local control over K-12 education, and now it's 
our job to ensure that promise is kept. Hearing from you--the very 
leaders we want to empower--is a critical part of that effort. What do 
you expect from the new law? What role do state and local leaders play 
in implementing the law? What challenges do you anticipate states and 
school districts may face? How can the department provide the increased 
flexibility and autonomy state and local leaders were promised?
    Today's conversation is one of many steps we plan to take to ensure 
the department upholds the letter and spirit of the law, and answers to 
these questions will inform our efforts moving forward. It is my firm 
belief that when the Every Student Succeeds Act is implemented as 
Congress intended, teachers and state and local leaders will be 
empowered to deliver the excellent education every child deserves.
    With that, I will yield to Ranking Member Fudge for her opening 
remarks.
                                 ______
                                 
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for being here this morning.
    I'm pleased to be here to discuss the implementation of the 
Every Student Succeeds Act. I do believe that this bipartisan 
law will fulfill the Elementary and Secondary Education Act's 
promise to promote and protect the right to educational 
opportunity for all of the Nation's most vulnerable children.
    We worked across the aisle to write this law over many 
months and years, and I am pleased with the role House 
Democrats played to strengthen the final conference report and 
secure the President's signature. I look forward to working 
with you, the administration, and with stakeholders to preserve 
the law's civil rights legacy during implementation.
    The Every Student Succeeds Act provides the much-needed 
flexibility absent in No Child Left Behind's one-size-fits-all 
requirements but maintains critical Federal protections to 
ensure that every child has access to a quality education. This 
is particularly important for students of color, English 
language learners, students with disabilities, and low-income 
students, who disproportionately face barriers to a quality 
education that prepares them for college and a career.
    Under ESSA, States and local school districts will have the 
flexibility to design multi-measure accountability systems, 
make important decisions about standards and assessments, and 
ensure that school intervention and support strategies are 
improving outcomes for students.
    But with new flexibility comes responsibility. States and 
school districts will need to implement ESSA in a way that 
continues its focus on meeting the needs of our Nation's most 
at-risk students. The work will not be easy. The voices of our 
communities will be vital in determining the parameters of 
implementation. Parents, teachers, and students will need to 
elevate their voices and experiences at school board meetings 
and State capitals across the country. State and local leaders 
will need to fight for strong, student-focused policies. And 
the U.S. Department of Education will need to ensure that 
States are putting children's needs first.
    As ESSA is implemented, stakeholder input will continue to 
be important. I was pleased to see that 370 organizations and 
individuals provided recommendations to the U.S. Department of 
Education regarding the regulatory process. Many stakeholders 
asked for additional clarity through regulations on issues 
including, but not limited to, defining vague terms, setting 
parameters, and providing options to fulfill legal requirements 
in ESSA.
    Many stakeholders also requested a timeline to help States 
and school districts plan for the transition. I believe such a 
timeline is a critical component of the process.
    Federal agencies are required to faithfully implement the 
law. I am pleased that the U.S. Department of Education has 
started the process of issuing regulations and guidance to 
assist States and school districts with implementing the Every 
Student Succeeds Act.
    States and school districts need clarity, rules, and 
oversight throughout the implementation process to ensure that 
the law fulfills ESSA's promise. While some things like annual 
assessments and disaggregated data will remain the same, there 
will be many new requirements, and the Federal guidance will 
empower States to hit the ground running.
    I look forward to hearing about the panel's experiences and 
their recommendations for ensuring a smooth and successful 
transition in a way that preserves the critical Federal role in 
promoting educational equity.
    I yield back.
    [The statement of Ms. Fudge follows:]

      Prepared Statement of Hon. Marcia L. Fudge, Ranking Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Mr. Chairman, I am pleased to be here today to discuss the 
implementation of the Every Student Succeeds Act. I believe this 
bipartisan law will fulfill the Elementary and Secondary Education 
Act's promise to promote and protect the right to educational 
opportunity for our nation's most vulnerable children.
    We worked across the aisle to write this law over many months and 
years, and I am pleased with the role House Democrats played to 
strengthen the final conference report and secure the President's 
signature.
    I look forward to working with you, the Administration, and with 
stakeholders to preserve the law's civil rights legacy during 
implementation.
    The Every Student Succeeds Act provides the much needed flexibility 
absent in No Child Left Behind's one-size-fits-all requirements, but 
maintains critical federal protections to ensure that every child has 
access to a quality education. This is particularly important for 
students of color, English language learners, students with 
disabilities, and low-income students, who disproportionately face 
barriers to a quality education that prepares them for college and a 
career.
    Under ESSA, states and local school districts will have new 
flexibility to design multi-measure accountability systems, make 
important decisions about standards and assessments, and ensure that 
school intervention and support strategies are improving outcomes for 
students. But with new flexibility comes responsibility. States and 
school districts will need to implement ESSA in a way that continues 
its focus on meeting the needs of our nation's most at-risk students.
    The work will not be easy. The voices of our communities will be 
vital in determining the parameters of implementation. Parents, 
teachers, and students will need to elevate their voices and 
experiences at school board meetings and state capitols across the 
country. State and local leaders will need to fight for strong student 
focused policies. And the US Department of Education will need to 
ensure that states are putting children's needs first.
    As ESSA is implemented, stakeholder input will continue to be 
important. I was pleased to see that 370 organizations and individuals 
provided recommendations to the US Department of Education regarding 
the regulatory process. Many stakeholders asked for additional clarity 
through regulations, on issues including, but not limited to, defining 
vague terms, setting parameters, and providing options to fulfill legal 
requirements in ESSA. Many stakeholders also requested a timeline to 
help states and school districts plan for the transition. I believe 
such a timeline is a critical component of the process.
    Federal agencies are required to faithfully implement the law. I am 
pleased that the US Department of Education has started the process of 
issuing regulations and guidance to assist states and school districts 
with implementing the Every Student Succeeds Act.
    States and school districts need clarity, rules, and oversight 
throughout the implementation process, to ensure that the law fulfills 
ESSA's promise. While some things--like annual assessments and 
disaggregated data--will remain the same, there will be many new 
requirements, and federal guidance will empower states to hit the 
ground running.
    I look forward to hearing about the panel's experiences and their 
recommendations for ensuring a smooth and successful transition in a 
way that preserves the critical federal role in promoting educational 
equity.
                                 ______
                                 
    Chairman Rokita. I thank the gentlelady.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And, without objection, the hearing 
record will remain open for the 14 days to allow such 
statements and other extraneous material in reference during 
the hearing to be submitted for the official hearing record.
    I will now turn to the introduction of our distinguished 
witnesses. And I ask Mr. Russell of Oklahoma to introduce our 
first witness.
    Mr. Russell. Well, thank you, Mr. Chairman.
    It's my honor this morning to welcome to the committee the 
State superintendent of public instruction for the great State 
of Oklahoma, Ms. Joy Hofmeister, a friend.
    She comes with a wealth of experience and background not 
only as a public schoolteacher but also as a small-business 
owner. She served on the State Board of Education. She has 
worked tirelessly, getting out in the school districts to 
listen to what the standards concerns are, the importance of 
having State control for these standards.
    And it is my honor to welcome her to this committee this 
morning.
    Thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentleman.
    Welcome.
    I'll continue with introductions.
    Dr. Paul "Vic" Wilson serves as the superintendent for the 
Hartselle City Board of Education, in Hartselle, Alabama. 
Previous to serving as superintendent, Dr. Wilson was a high 
school principal at Mountain Brook High School.
    Ms. Selene Almazan serves as legal director for the Council 
of Parent Attorneys and Advocates, COPAA, in Towson, Maryland. 
For the last 20 years, Ms. Almazan has represented parents in 
special education matters, with a primary focus on least 
restrictive environment issues, individualized education plan 
team meetings, State complaint proceedings, mediations, due 
process hearings, suspension and expulsion proceedings, and 
Federal court proceedings.
    Welcome.
    Mr. Kent Talbert serves as an attorney in Washington, D.C., 
where he provides advice on education law and policy, covering 
pre-K through postsecondary education issues. In addition, Mr. 
Talbert served as the general counsel for the U.S. Department 
of Education from 2006 to 2009 and also served with this 
committee.
    Welcome, all.
    I will now ask our witnesses to stand and raise your right 
hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth?
    Chairman Rokita. Let the record reflect witnesses answered 
in the affirmative.
    And you may be seated.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You each have 5 minutes to 
present your testimony. When you begin, the light in front of 
you will be green. When 1 minute is left, the light will turn 
yellow. And when your time is expired, it will be red. At that 
point, I'll ask you to wrap up your remarks as best as you are 
able.
    And, by the way, this is a reminder for us up here, as 
well, not just you all. Members then will each have 5 minutes 
to ask questions.
    And, with that, Ms. Hofmeister, you're recognized for 5 
minutes.

     TESTIMONY OF JOY HOFMEISTER, SUPERINTENDENT OF PUBLIC 
 INSTRUCTION, OKLAHOMA STATE DEPARTMENT OF EDUCATION, OKLAHOMA 
                         CITY, OKLAHOMA

    Ms. Hofmeister. Well, thank you very much.
    Chairman Kline, thank you. Thank you, Chairman Rokita, 
Ranking Member Fudge, as well as the introduction from my 
Congressman, Congressman Russell, and members of the committee, 
for the opportunity to testify today.
    And congratulations on the successful passage of Every 
Student Succeeds Act. As Oklahoma State superintendent, I 
embrace the challenge to successfully implement this important 
new law. My goal is to ensure all Oklahoma's students have 
access to a high-quality education.
    To do so, we have set out on an ambitious path to focus on 
early childhood foundations in literacy, to close achievement 
gaps and opportunity gaps, and to increase the number of high 
school graduates fully prepared for the challenges of a 
postsecondary education or the workforce. Passage of this new 
law could not have come at a better time to give us the 
flexibility and authority needed to achieve these goals.
    Prior to the passage of the Every Student Succeeds Act, 
Oklahoma struggled to realize the full potential of every 
child. Why? While we set ambitious goals and created meaningful 
programs to meet those goals, we faced a prescriptive Federal 
law that offered neither the space nor the flexibility to do 
what we needed to do on behalf of kids.
    Today, however, my fellow State chiefs and I look forward 
to both the flexibility and stability of this new law so we can 
create accountability systems, school-level interventions, and 
educator evaluation and support frameworks to achieve the goals 
we have set for all students in our States.
    This law signals a new era of Federal policy in education, 
one that lets those at the State and local levels, those 
closest to the classrooms, focus their efforts on reaching the 
best outcomes for all students while still holding us 
accountable for results for kids.
    States like Oklahoma will only be able to achieve the full 
promise of this new law if the Federal Government continues to 
hold true to the spirit of the law, if we truly are allowed to 
innovate, free from regulations and guidelines that change the 
intent of this body. Striking the balance between guidance to 
the States and ensuring that States are not overly prescribed 
is what State leaders need.
    I realize that some regulation and guidance are necessary 
as States transition to the new law. For example, I know States 
will welcome clarification on such issues as the timeline for 
implementation.
    And I want to recognize the U.S. Department of Education 
already, as they have taken steps to provide some clarity on 
key issues, such as the recent guidance on how States can 
transition away from highly qualified teacher regulations. I 
applaud these positive signs from the Department and appreciate 
their efforts to leave these necessary decisions up to States 
and local communities.
    Under No Child Left Behind, States quickly realized that 
academic progress was stalling under an outdated law. We first 
noticed the lag in our accountability systems. Because these 
systems relied solely on the number of kids passing one test 
each year, we could not accurately identify all schools in need 
of improvement. Moreover, once schools were identified, we saw 
that what may work for school improvement in Oklahoma City or 
in Tulsa was not the same as what was needed or might work in 
Guymon or Muskogee.
    Oklahoma has a new day, and we know that now, under the new 
Every Student Succeeds Act, Oklahoma plans to build on the 
progress we made through our ESEA flexibility waiver to create 
a better system for all kids--an accountability system that 
better identifies schools and what assistance they need; more 
targeted interventions that recognize not every student or 
community is the same; and complete authority to craft an 
evaluation and support system that truly evaluates and supports 
Oklahoma teachers amidst the reality of a historic teacher 
shortage.
    Let me leave you with this final thought. States are not 
only ready but we are willing and able to lead under this new 
law. We have proven it time and time again, as we have raised 
academic standards for every child, created better assessments 
to meet individual needs, and sought additional flexibility to 
do what is best for all kids in our States.
    What we need today is for Congress and the U.S. Department 
of Education to continue to recognize our leadership as we work 
with parents, teachers, and key stakeholders to transition to 
this new law. Future regulation should focus on providing 
States with guidance, clarification, and support but not 
prescription and compliance.
    I look forward to this opportunity to focus on what needs 
to be done to give every Oklahoma child a first-rate education. 
Under this new law, I now see the Federal Government as a 
partner in this effort, not a barrier. I hope we can work 
together to keep it that way.
    Thank you, and I'm available for answering any questions 
you may have at the appropriate time.
    [The statement of Ms. Hofmeister follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Thank you.
    Dr. Wilson, you're recognized for 5 minutes.

  TESTIMONY OF PAUL ``VIC'' WILSON, SUPERINTENDENT, HARTSELLE 
                CITY SCHOOLS, HARTSELLE, ALABAMA

    Mr. Wilson. Thank you. Good morning. Thank you for allowing 
me to speak to you about the reauthorization of the Elementary 
and Secondary Education Act, which resulted in the passage of 
the Every Student Succeeds Act.
    My name is Vic Wilson, superintendent of Hartselle City 
Schools, and I come to you today representing AASA, The School 
Superintendents Association; Schools Superintendents of 
Alabama; and the Hartselle City Schools.
    ESSA signifies a wonderful step in the right direction to 
return autonomy and decision-making to the State and local 
level. Just as former Speaker of the House Tip O'Neill observed 
all politics is local, I contend that all education is local, 
as well, and best delivered and administered at the local level 
by educational professionals and stakeholders who know and 
understand the intricacies of not only local politics but local 
education.
    Certainly a role exists for the United States Education 
Department, a role focused on strengthening and supporting 
public schools by equitably applying broad flexibility to 
States and local districts in their efforts to meet the needs 
of the stakeholders under their purview. ESSA represents the 
first time in 15 years that State and local education agencies 
can demonstrate what they can do to support student learning 
without Federal overreach.
    Throughout the United States, the Nation's 14,000 public 
school superintendents are charged with meeting and exceeding 
expectations of student achievement and learning for 
stakeholders at the local level. What works in Alabama might 
not work and might be slightly different from what works in 
Minnesota. Likewise, what works in Hartselle, Alabama, might 
differ slightly what from what works in Florence, Alabama, or 
Arley, Alabama. ESSA provides a new opportunity for each of 
those leaders who craft and implement customized education for 
learners in their district.
    In Hartselle City Schools, we strive to meet the needs of 
students who want to be a rocket scientist, the student who 
wants to be a doctor, the student who wants to be a welder, the 
student who wants to work in public service, or the student who 
really doesn't know what he or she wants to be at that time, 
and perhaps even the student who wants to become a teacher.
    Thanks to the flexibility given to us by the Alabama State 
Department of Education and now ESSA, we are able to do this by 
collaborating, as necessary, with local entities and other 
school systems across the State. We're even able to converse 
and collaborate with leaders across the Nation to see how these 
ideas are working in one region of the country and how they 
might be applied in our area. This works best on an organic 
level via networking conducted by local leaders instead of top-
down mandates, and ESSA allows and encourages this type of 
collaborative dialogue.
    Last week, Superintendent Bill Hopkins, Superintendent Ed 
Nichols, and I met in Montgomery with superintendents across 
our State at our legislative conference. While all of three of 
us reside in Morgan County, we each have differences with which 
we must deal on a daily basis. Without the ability to implement 
guidelines that best fit the needs of our respective districts' 
students, we would be forced to work with round holes and 
square pegs far too often.
    Every leader needs the flexibility to deal with those 
situations that are unique to their district in a manner that 
best meets the need. Superintendent Janet Womack will deal with 
issues in Florence City differently than Ed, Bill, or I will, 
and rightly so. ESSA is a huge step in this direction and will 
serve leaders as they strive to lead all learners up the stairs 
of success.
    When it comes to Federal regulations and ESSA, less is 
more. I strongly encourage the USED to incorporate input and 
feedback from stakeholders before adding regulations that could 
hamper their State and local decision-making.
    In Alabama, Dr. Bice implemented PLAN 2020 that has greatly 
increased local control and had resulted in great growth across 
our State. Our graduation rates are going up. Our dropout rates 
and recidivism rates are going down.
    For example, by reexamining rules and regulations that tie 
seat time to credit-bearing courses or regulations that ignore 
competency-based accountability systems, the United States 
Education Department can empower school districts to think 
outside the box and implement procedures and policies that best 
meet the needs of schools and the students they serve.
    Hartselle City Schools, the SSA and the AASA, and other 
agencies concur about the importance of implementing ESSA in a 
manner that reflects the expanded authority and flexibility now 
granted to the experts at the State and local level. ESSA makes 
it clear that Congress' intent is the State should be solely 
responsible for decisions regarding accountability, standards, 
teachers, and other factors. Essentially, ESSA is a 
codification of reality that one size does not fit all and 
there truly is not one best model that will serve all students 
and schools.
    Thank you again for the opportunity to speak to you today 
and submit these comments. My goal today has been to highlight 
the importance of ensuring the State and local education 
agencies have local control when deciding among the myriad 
options available in delivering quality instruction and meeting 
the needs of all the students.
    By allowing this broad flexibility to the States and local 
agencies, ESSA will go a long way in transforming public 
education at the local and State level and thereby propelling 
public education forward nationally.
    Thank you.
    [The statement of Mr. Wilson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Thank you, sir.
    Ms. Almazan, you're recognized for 5 minutes.

 TESTIMONY OF SELENE A. ALMAZAN, ESQ., LEGAL DIRECTOR, COUNCIL 
   OF PARENT ATTORNEYS AND ADVOCATES, INC., TOWSON, MARYLAND

    Ms. Almazan. Thank you.
    Good morning, Chairman Kline, Chairman Rokita, Ranking 
Member Scott and Ranking Member Fudge, and members of the 
committee.
    I am Selene Almazan, legal director of the Council of 
Parent Attorneys and Advocates, a national nonprofit whose 
mission is to protect the civil rights of 6.4 million children 
with disabilities attending our Nation's public schools. I am 
also a parent to three children. Two of my children have 
disabilities and attended Maryland public schools.
    I understand the impact of high expectations for students 
with disabilities and students of color through the lives of my 
clients and know firsthand the impact of high expectations for 
my own children.
    A client of mine, Georgia, now age 12, was placed in a 
segregated classroom with no access to high-quality 
instruction. She's African-American. Georgia has a rare genetic 
condition that impacts her in many ways but does not impact her 
desire to learn. We worked to have her moved to general 
education classrooms. With the right supports and access to 
trained teachers and high expectations, she flourished.
    Georgia is not alone in her quest. The need to demand high 
expectations in order to have the opportunity to achieve has a 
profound impact on the lives of many students and their 
families, my own included.
    Over the past several years, COPAA has worked with 
disabilities, civil rights, and business communities to ensure 
that ESEA, now known as the ESSA, fully supports black, 
Hispanic, low-income, English learners, and students with 
disabilities to succeed.
    Key to our collective support has been that the Secretary 
of Education approves plans and ensures State implementation 
and that States take action when schools and districts fail to 
meet their obligations; includes annual statewide assessments; 
has a strict statewide participation cap at 1 percent of all 
students by subject on the use of alternate assessments; 
includes a requirement to assess at least 95 percent of all 
students; includes statewide accountability systems with 
achievement and graduation goals; and requires action when any 
group of students consistently underperforms.
    My testimony today intends to accomplish two priorities.
    Priority number one: The role of the Department of 
Education is vital in the implementation of ESSA. While section 
1111(e) of ESSA includes specific limited restrictions on 
Federal prescription, COPAA and its civil rights coalition 
partners are confident that the provisions therein are specific 
and limited enough as to not erode the regulatory authority of 
the Secretary.
    ESSA acknowledges that regulations will be promulgated, 
and, in so doing, the Secretary will use regulations that 
protect the rights of all children without exceeding the scope 
of and without being inconsistent with the statute. It is clear 
that the U.S. Department of Education has the correct 
regulatory authority to develop recommendations for 
implementation. In its simplest form, regulation allocates 
responsibility to implement statutory law.
    On priority two, COPAA takes seriously the impact Title I 
implementation has on students. We understand States will have 
more discretion in carrying out ESSA. However, COPAA, along 
with our partners in the business, civil rights, and disability 
community, have and will work to prevent efforts to water down 
expectations, avoid full transparency, diminish the importance 
of honest measures, or delay interventions when any group of 
students is struggling.
    COPAA submitted comprehensive recommendations to the 
Secretary on ESSA Title I. We believe it is imperative that the 
Secretary exercise full legal authority to issue regulations on 
key Title I provisions, including: to clarify and define new 
statutory terms and provide parameters on the n-size to protect 
the integrity of accountability and assessment systems; specify 
that 95-percent participation requirement is included in 
accountability; establish the statutory State cap at 1 percent 
of all students for use in alternate assessments; recognize 
district flexibility and create strict criteria for any State 
waiver; assure State and district-led evidence-based 
interventions systems are focused on raising achievement and 
are initiated whenever any school is underperforming for all 
students or for any student group.
    The ESSA is our Nation's most important civil rights law. 
While ESSA does include new flexibility, it also includes 
bright-line requirements that the civil rights and business 
community help support. The Department must now provide 
clarifying rules so States can implement the law in a way that 
honors the purpose of the bill but also holds States 
accountable for access to over 15 billion dollars in Federal 
funds. Federal funds are still conditional through compliance 
with the law, and there's agreement that the Secretary has the 
authority to define, monitor, and enforce the law.
    Student rights and educational opportunity must not be 
compromised by politics that seek to ignore the foundational 
tenet of administrative law. We want to help States and 
districts create new opportunities to accelerate student 
progress for our most vulnerable groups of children.
    I appreciate the opportunity to speak to you today and look 
forward to your questions. Thank you.
    [The statement of Ms. Almazan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Thank you.
    Mr. Talbert, you're recognized for 5 minutes.

 TESTIMONY OF KENT D. TALBERT, ATTORNEY AT LAW, LAW OFFICE OF 
            KENT D. TALBERT, PLLC, WASHINGTON, D.C.

    Mr. Talbert. Chairman Rokita, Ranking Member Fudge, 
Chairman Kline, Ranking Member Scott, members of the committee, 
it's a pleasure to be here to present testimony on 
implementation of the Every Student Succeeds Act.
    In my past role as general counsel, one of my tasks was to 
advise the Secretary of Education on the contours of newly 
enacted laws--in other words, what are the boundaries or the 
scope of the text. This is a lot like a football field. The 
field has boundaries within which the game is played. And so, 
too, any new law must be interpreted within the confines of the 
text.
    The process of advising the Secretary necessarily involves 
making judgments about whether proposed regulatory actions or 
guidance or other implementation decisions are within the scope 
of the words of the statute. This generally involves taking a 
close look at the particular text as well as looking at the 
text in light of the whole.
    One question that sometimes arises is what happens if a 
regulation is drafted in a manner that's outside the scope of 
the text. The answer is a department or agency may risk a 
potential lawsuit, and so there's potential that the regulation 
could be set aside by a court. Or, in the case of guidance, 
there's a risk that it could be declared legislative rule--in 
effect, a regulation. And in this latter case, a court may 
require a department or agency to go back and do notice-and-
comment rulemaking.
    And so it's within this context that I present my 
testimony. I have three things that I'll focus on. The first is 
the law's broad shift in authority to States and school 
districts. Secondly, I'll share a few thoughts on 
implementation. And, third, I'll conclude with a brief 
discussion of some of the prohibitions in Title VIII of the 
law.
    With respect to the shift in authority to States and school 
districts, without question, the new law provides States with 
the authority to design accountability systems from the ground 
up. In effect, the States become the design engineers operating 
within broad Federal guidelines, and then they proceed to build 
these systems.
    In addition, the law's shift in authority can be seen in 
the multiple affirmations of the State-level direction over 
standards and assessments and in the prohibitions that are 
placed upon the Federal Government's involvement in standards, 
assessments, and curriculum.
    I'll talk about some of those prohibitions in a little more 
detail in a few minutes, but for now I would note that the new 
law does prohibit the Federal Government from mandating, 
directing, or requiring Common Core State standards as well as 
any other assessments aligned to such standards.
    Similarly, no funds may be used for developing, 
incentivizing, administering, and so forth of any federally 
sponsored national test unless it's expressly authorized in the 
law. For example, NAEP would be one of those that's expressly 
authorized in the law.
    A third aspect of the shift to States and school districts 
can be found in the waiver authority. New language was added to 
section 8401 to make clear that the Federal Government may not 
disapprove a waiver request based on conditions that are 
outside the scope of the waiver that's requested, nor may the 
Secretary require as a condition of waiver approval an 
applicant to use Common Core standards or use specific 
assessments, such as those aligned to the Common Core, nor 
include in or delete from a waiver request specific elements of 
State academic standards assessments, accountability systems, 
or teacher evaluation systems.
    Turning now to implementation, were I providing advice to 
those charged with implementation, I would note the primary 
importance of the text in any interpretive challenge. 
Ultimately, fidelity to the text will prove critical in any 
legal dispute. And so, in reading the text of the Every Student 
Succeeds Act, one should be aware of and distinguish between 
things such as purpose statements, express program 
requirements, rules of construction, findings, as well as sense 
of the Congress provisions.
    Likewise, in thinking through implementation, I want you to 
be apprised of the various cannons of construction. Three 
examples of rules of construction are the plain meaning rule, 
the rule of nonretroactivity, and the harmonization of 
disparate text to the extent you can harmonize different 
provisions. One should also give attention to the words that 
are used, ``shall'' versus ``may,'' and then such things as 
grammar and punctuation.
    Separate and apart from consideration of the text is the 
legislative history that's involved. In order to provide as 
complete a picture as possible to senior officers and so forth, 
I would recommend that they carefully review, prior to 
implementation and rulemaking, all the relevant parts of 
committee reports, floor debates, conference reports, and the 
like. They are particularly helpful in understanding the 
broader background and context of the law.
    With respect to Title VIII's general provisions, and to 
conclude, I would advise careful attention to these. They often 
deal with discrete, sometimes controversial topics. They 
include prohibitions, limitations, and commentary on a host of 
issues. Some have been in the law for years, others are new, 
others are modified. Most are generally straightforward and 
unequivocal.
    For example, officers or employees of the Federal 
Government, whether through grant, contract, or cooperative 
agreement, are prohibited from mandating, directing, and 
controlling, so forth, the school district or schools' programs 
of instructions, standards, assessments, and the like. This 
also includes prohibitions relating to the Common Core 
standards. And States cannot be penalized for withdrawing from 
the Common Core.
    Chairman Rokita. Mr. Talbert, I need to cut you off. Five 
minutes is up, but I'm sure we'll come back to your testimony 
in the questions. So thank you very much.
    Mr. Talbert. Thank you very much.
    [The statement of Mr. Talbert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. I thank all the witnesses.
    As I often do, I'm going to defer my questions to the end 
and recognize other members of the committee first, first and 
foremost being the chairman of the full committee, Mr. Kline 
from Minnesota, for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Thanks to the witnesses for being here.
    We're very excited and interested to follow the 
implementation of ESSA. As all of you know, it was years in the 
making. There was bipartisan agreement that we wanted to have a 
devolution of power from the Federal Government back to States 
and local governments.
    Our concern has been, my concern has been, as we go into 
implementation, that there may be misinterpretations Mr. 
Talbert was just talking about. It is possible that some States 
will end up with No Child Left Behind light. I certainly hope 
that doesn't happen. But it was my belief, and I think in a 
bipartisan way, that those were choices that these States and 
local governments would be making.
    One of the things that we have been hearing some about, 
besides the assertion of the former Secretary of Education that 
he has better lawyers than we do--I'm not sure that I agree 
with that. In fact, I would disagree with that.
    But there has been a lot of noise that the new law, ESSA, 
in requiring that standards be aligned to college entrance 
requirements, that there is some noise that the Federal 
Department of Education has implied that this will mean 
college- and career-ready as defined in the Race to the Top 
grant program. And around the country, many people see that--
and I've already heard this many times--that that's sort of 
code for Common Core State standards. That's certainly not my 
intent nor, I think, our intent in a bipartisan way.
    But I want to go to Ms. Hofmeister, if I could, because I'm 
looking at some notes here in front of me. We understand that 
Oklahoma has recently gone through a rewrite of its academic 
standards, in consultation with its higher education system, 
that has not resulted in Oklahoma adopting the Common Core.
    Can you walk us through what you did and how that works and 
how it might apply elsewhere?
    Ms. Hofmeister. Yes, sir. Thank you, Chairman.
    We certainly started out with a process where we wanted to 
make certain that our students would be competitive and that 
they would be ready for their next steps in learning, whether 
that's at the end of the grade level or at the end of their 
high school career, ready to take those next steps. And we do 
believe that there is need for that.
    What we did in Oklahoma was we partnered together at each 
grade band level, starting with early childhood because we have 
pre-K. This is a first time we have vertically aligned pre-K 
through 12th-grade standards, and we partnered with counterpart 
in higher education, using subject matter experts as well as 
those familiar with pedagogy of teaching that subject. And 
we're working together, a combined effort on the writing teams. 
So we had co-chairs in math and English language arts that 
reflected both the common education system as well as higher 
education.
    And that partnership was one that has been successful. Just 
earlier, on the first day of this month, we submitted those 
standards that included the input of hundreds of Oklahoma 
teachers and those members in higher ed, as well.
    Mr. Kline. So just to underscore this, because I'm afraid 
we're going to be hearing this again and again and again, you 
have gone through the rewrite of your academic standards in the 
collaborative way you've just described, and you ended up with 
standards that are not the Common Core. Is that correct?
    Ms. Hofmeister. Absolutely, they are not Common Core. We --
    Mr. Kline. Nor--excuse me--nor did you feel compelled to 
make them Common Core.
    Ms. Hofmeister. That is correct. And we are a State who 
lost our waiver because we repealed Common Core and had to go 
through efforts to demonstrate that we had rigorous standards. 
And that was certified by our higher ed board of regents. Then 
we got to work writing the standards that Oklahoma needs for 
Oklahoma students.
    Mr. Kline. Perfect. Thank you very much.
    I yield back.
    Chairman Rokita. The gentleman yields back.
    Ranking Member Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Hofmeister, it's my understanding that Oklahoma now has 
only three subgroups for performance and two for graduation. 
The subgroups that we expect to be evaluating would include 
ethnicity, English as a second language, disability, and low-
income. Will you be assessing students on all four subgroups, 
in compliance with the law?
    Ms. Hofmeister. Yes. And thank you, Congressman.
    We do believe--and I have been in office for a year and 
have been critical of the particular accountability system that 
we have. It is actually one that was granted to us under a 
waiver. But it does mask the performance of our subgroup 
population. This is an area of concern for me.
    It's also an area that I think needs to have a greater 
exposure at the local level so that they can make the kinds of 
strategic plans to address the needs of those who are not 
performing to their full promise and potential in those 
subgroups. So, yes, sir.
    Mr. Scott. Thank you.
    And back to the question that the chairman asked about 
Common Core, you set the standards, but are the standards--if a 
student achieves the standards, will they be eligible for 
entrance in a State college?
    Ms. Hofmeister. That is very important. Thank you, 
Congressman.
    We want to be certain that students finish graduation and a 
diploma has great value and meaning, and a meaning that means 
they are able to begin with the credit-bearing coursework in a 
university or college or community college or that they are 
ready to start work or continue work with credentialing in the 
industry and workforce area.
    So this is something that we have great work to do in 
working to really eliminate and shrink the remediation gap that 
exists right now. And I do believe that we are on our way.
    Mr. Scott. Thank you.
    Ms. Almazan, what authority does the Federal Government 
have under the bill if a State and local education system fails 
to graduate the requisite percentage of students or they fail 
to achieve? What authority does the Federal Government have to 
come in and do something?
    Ms. Almazan. Well, we believe that the Federal authority is 
there in section 1111(e) of the ESSA. And it is well-
established under administrative law that the executive branch 
does have the authority to come in and help implement and 
interpret statutes and laws that have been promulgated. They 
have the authority to clarify as well as interpret and help to 
implement, because the executive branch does have the expertise 
in implementation.
    Mr. Scott. Thank you.
    And, Ms. Hofmeister, what should be done if a school fails 
to achieve, say, on graduation rates? What kind of response 
should there be on a State and local basis for a school that's 
not achieving on graduation rates?
    Ms. Hofmeister. Thank you, Congressman.
    We need to have very good information so people can make 
good decisions. And some of those decisions are on how to 
address needs, but you don't have an opportunity to do that if 
you don't have that good information.
    So, in our current situation, we had an accountability 
system that really masks that. That was approved by the 
Department of Education. And what we found was you could earn a 
letter grade of an A or a B and still have a graduation rate in 
your school of less than 67 percent. That's unacceptable. 
That's a problem. So we want to address that, and we now have a 
new way.
    Mr. Scott. What kind of initiatives would take place once 
you've unmasked the problem? One of the things that we want to 
do, both to assess but then do something? What kinds of things 
can be done to improve the graduation rate?
    Ms. Hofmeister. Well, one example would be, first of all, I 
believe you have to start by building capacity within leaders. 
We can't all do it at the classroom level from the State. I 
believe that those closest to the problem have the best hope of 
solving it, and it involves bringing in strong leadership and 
building that.
    I can give you an example of a school district or school, 
McLain High School, that was part of turnaround models of 
coming in and starting over with new people and in a 25-year 
period had 18 new principals. That is a very drastic approach 
that is not working when you have 25 years later you're in the 
same boat.
    We've got to plug stakeholders in to solving things. And 
they've got to be a part of it. It's about building capacity.
    And, truly, the State has authority, but our authority 
needs to be in equipping and supporting. And then we will do 
whatever it takes to make certain that students are not left 
behind and that they have an opportunity--all kids must have, 
really, access to that high-quality education. But it starts 
with building capacity at the local level.
    Chairman Rokita. The gentleman's time has expired. I thank 
the gentleman.
    The gentleman from Georgia is recognized for 5 minutes, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank each of you for being here today. We appreciate 
what you're doing. What you're doing for our students is 
extremely important.
    Ms. Hofmeister, let me start with you. You have the title 
of superintendent of public instruction for the Oklahoma State 
Department of Education. So I'm assuming that you've seen 
different frameworks and different styles across the State.
    I could not help but sense in your opening statement that 
you question somewhat the devolution of power that we feel like 
we've done here at the Federal level. I don't know if that was 
just my sense or if that's what you were trying to portray. Do 
you have some doubts?
    Because I just want to assure you, as someone who voted in 
favor of this bill, it's our intention that the power go back 
to the local governments.
    Ms. Hofmeister. Please don't mistake those comments in any 
way for not appreciating the return of the decisions that 
belong at the State level, where we embrace that.
    What I want you to hear very clearly is, number one, hold 
us accountable for results for kids, but don't tell us how we 
achieve that. We know at the State level, as leaders, what 
works best in our own States. And we share the goal of having 
every one of our children ready for their next steps in 
learning and truly having the full potential realized for them.
    And that's going to take a very strong partnership at local 
levels with stakeholders. So that is something that is very, 
very important to me, and it's actually something I ran on.
    Mr. Carter. Well, let me ask you this, then. Having said 
that, now that you do have this opportunity, what are you going 
to be recommending to help develop the freedom and the 
flexibility in the curriculum? Can you give me just a couple of 
examples of what you're going to be recommending to the public 
schools?
    Ms. Hofmeister. Absolutely. Thank you for the opportunity.
    First of all, what we did, because I was not happy with an 
accountability system that masked the performance of our 
subgroups, one where we do not have truly a light shown on how 
students are performing beyond a label, a collective label.
    We need to have, I think, the use of best practices, the 
latest of research science. So we commissioned work to be done 
with research scientists in our two research universities this 
year. I've been in office for 1 year, so we have completed 
that. We are working also with--they have national reviewers 
look at that, as well.
    We've got to look at what is it that are good measurements 
for outcomes for kids, successful outcomes for kids, and then 
we need to make sure we're measuring that.
    And that's something that should have flexibility over time 
to respond and react to new data and new information. When we 
have a system in place where our hands are bound and we have to 
wait for permission--
    Mr. Carter. Okay.
    Ms. Hofmeister.--then we are unable to accomplish.
    Mr. Carter. Great. Great.
    Dr. Wilson, you being from Alabama and me being from 
Georgia, we are very strongly independent, and we want control. 
What are you going to be implementing? What are you going to be 
suggesting to your school systems, in your particular schools? 
You're the boots on the ground there in the superintendent's 
office.
    Mr. Wilson. We've already begun to do that. We are trying 
to customize our education. We have eight different academies. 
We have children who are leaving our campus. We have kids who 
are going to graduate with a welding degree. We have kids that 
are going to be dually enrolled.
    What we're trying to do is not only provide, you know, 
college- and career-ready, but we're trying to provide the 
right college for students. We have conversations with children 
along the way, and if they tell us they want to do this, this, 
and this, but they want to go to a school that doesn't meet 
that, we want to help them get in there. Everything we do along 
the way helps gets kids where they want to go and need to go.
    We are partnering. In fact, tomorrow we'll be mentioning 
something, that we're partnering with Morgan County Schools 
that have a wonderful auto tech. We have none. I don't have a 
million dollars to spend on auto tech--
    Mr. Carter. I'm very encouraged to hear that.
    Mr. Wilson. We're sending kids to Morgan County. They don't 
have some of the AP offerings we have. They're going to send 
them to us.
    Mr. Carter. Great. Great.
    Mr. Wilson. So we're working together.
    Mr. Carter. We appreciate what you're doing.
    Mr. Talbert, I just want to ask you, from your perspective, 
any words of wisdom to them as they implement this, as they go 
forward now?
    Mr. Talbert. Well, they are the boots on the ground. And so 
look to the text of the statute, watch what happens in 
negotiated rulemaking, watch what proposed regulations are put 
out there, and then read it, understand it, and then apply it.
    Mr. Carter. Great.
    Mr. Chairman, I yield back.
    Thank you all.
    Chairman Rokita. I want to thank the gentleman.
    Ranking Member Fudge, you're recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    Thank you all for your testimony today.
    Mr. Wilson, in your testimony, you state that, like 
politics, all education is local. I'm just curious, do you see 
civil rights as a local issue?
    Mr. Wilson. Certainly--I'm sorry.
    Ms. Fudge. Should a child's right to educational 
opportunity be left to local discretion, or is there a Federal 
role in protecting the civil rights of every child?
    Mr. Wilson.
    Mr. Wilson. Thank you.
    It's actually both. It's all of us. The Civil rights is a 
local issue, it's a State issue, it's a national issue. So that 
is something that we're going to meet the kids where they are, 
find out what their needs are, help devise a plan to get them 
where they need to be, and help matriculate them through the 
process.
    Ms. Fudge. Thank you. But you agree it is a Federal issue?
    Mr. Wilson. It's all of us, yes, ma'am.
    Ms. Fudge. That's not my question.
    Mr. Wilson. Okay.
    Ms. Fudge. Is it a Federal issue?
    Mr. Wilson. It's a Federal issue.
    Ms. Fudge. Thank you very much.
    Mr. Talbert, in 2008, during your tenure as general 
counsel, the Bush administration issued new regulations 
requiring States to use a uniform graduation rate calculation 
for the purpose of accountability, as required by No Child Left 
Behind.
    Why did you believe that it was necessary and appropriate 
for ED to use regulatory authority to define a term like 
``graduation rate'' when the term wasn't fully defined in 
statute? Do you believe that the enactment of ESSA now makes 
similar clarification of statutory terms unnecessary?
    Mr. Talbert. Well, no. I mean, certainly, ESSA sets forth 
definitions in the text of ``graduation rate,'' and so that's 
what should be adhered to. If it's not clear, then there may 
need to be clarity that's included in regulations, but it's in 
the text.
    Ms. Fudge. Ms. Hofmeister, ESSA aims to ensure that all 
students have the opportunity to attend a high-quality school. 
According to the Alliance for Excellent Education, if 
Oklahoma's graduation rate were to reach 90 percent, the new 
graduates would bring an additional $69 million into the 
economy in earnings, leading to the creation of 500 jobs. And 
that's just for a single class.
    In Oklahoma, there are 24 high schools with an enrollment 
of at least 100 students where one-third or more of the 
students do not graduate. Under ESSA, these schools are 
required to implement comprehensive, evidence-based 
interventions. Can you describe how your State would implement 
this provision and reap those benefits?
    Ms. Hofmeister. Sure. Thank you very much, Congressman.
    And it starts with essential elements that we know are 
evidence-based that will work with local school leaders. And 
for some of them, it is a school principal that is serving in a 
dependent school district as a superintendent, as well. So they 
are the instructional leader as well as dealing with regulation 
that befalls a superintendent on top of that. So it's about 
capacity again.
    The boots on the ground have to understand how to read the 
kind of information to guide smart decision-making. And that is 
where the Department must be able to provide that kind of 
support.
    We have not seen the kind of success we would have expected 
to see in the years under No Child Left Behind. Under the 
particular guidance that has been given federally, we have seen 
these schools not improving. So we have to ask the question of 
why. And I believe that the answer comes when we're able to 
make decisions that fit the community, the challenges specific 
to that community, with the expertise and support at the State 
level.
    We are changing school turnaround in our office because 
that is something in the agency that has not been successful 
and has to be done differently, and we now have that 
flexibility to use best practices and evidence.
    Ms. Fudge. Thank you.
    Another question for you. You said that your current 
accountability system masks subgroup achievement and that is 
unacceptable, and I agree with that.
    Ms. Hofmeister. Absolutely.
    Ms. Fudge. My question is, is there not a Federal role in 
ensuring that other States don't have the same problem?
    Ms. Hofmeister. I think that this is something that every 
State leader bears that responsibility. It is not the 
responsibility of the Federal Government. It is the 
responsibility of our State to care and to provide the kind of 
resources--
    Ms. Fudge. What happens if it doesn't?
    Ms. Hofmeister. Well, I think that there's certainly a 
responsibility at the State level, and that's where--
    Ms. Fudge. What happens if they don't is my question.
    Ms. Hofmeister. Well, we have seen under No Child Left 
Behind that whatever did happen did not work and what is going 
to be--
    Ms. Fudge. I'm talking about ESSA.
    Ms. Hofmeister. On ESSA, we now have the freedom to do what 
we perhaps at some States--and I can't speak for all States--
but weren't able to do because their hands were tied.
    Ms. Fudge. So who can speak for all States?
    Ms. Hofmeister. So I'll tell you what we'll do in Oklahoma.
    Ms. Fudge. Okay.
    Ms. Hofmeister. In Oklahoma, what we want to do is, first, 
you've got to have face-to-face meetings with people. You can't 
just provide some kind of centralized power that is going to 
actually make changes. And this may sound very simple, but it 
starts with relationships and trying to understand what people 
are facing and help educate those in local school districts to 
be able to really see a vision for where students can go, that 
oftentimes it may be lacking because of inexperience, maybe 
because of a lack of appreciation for best practices, the 
newest work and research.
    And it is a part of the State's obligation to provide that 
kind of professional development and support. But it takes a 
specific plan.
    Chairman Rokita. The gentlewoman's time has expired.
    We'll now hear from the gentleman--excuse me, the gentleman 
from Oklahoma is recognized for 5 minutes. I'm sure we'll hear 
from him.
    Mr. Russell. Thank you, Mr. Chairman.
    There's a lot of discussion about whether or not States are 
able to truly provide the level of detail and the quality of 
education for those with disabilities, lower income, those by 
ethnicity. And we hear this debate back and forth.
    I really have just brief questions.
    Ms. Hofmeister, are you aware that Oklahoma has a higher 
overall graduation rate than, say, the State of Virginia?
    Ms. Hofmeister. Well, we certainly have a graduation rate 
above the national average, including our Native American 
population, which is the largest in the country.
    Mr. Russell. Were you also aware that Oklahoma has a higher 
lower-income graduation rate than, say, the State of Virginia?
    Ms. Hofmeister. I'm not familiar with--
    Mr. Russell. Were you also aware that our disability 
graduation rate in Oklahoma ranks at 78.5 percent as opposed to 
51.5 percent in, say, the State of Virginia?
    What I'm trying to make the point on here is that just 
because there are perceptions of flyover country or, you know, 
different types of notions of what a quality education might 
be, you know, we've shown that when States are empowered with 
the choices, not only are graduation rates higher but we also 
see that in the areas of concern, where we think that the 
Federal Government should have a stronger Federal role--it's 
assumed that the States don't care about these populations, 
which is, I believe, absurd. Of course the States care about 
them.
    And I think Oklahoma, particularly when you look at 
disability graduation rates, I think, leads the country in a 
lot of its outreach and the type of things that it's trying to 
do, you know, for these subgroups.
    It might also be interesting to ask, were you aware that 
the unemployment rate in Oklahoma--meaning to translate from 
graduates to, like, the workforce, which is the stated goal of 
almost all of us--are you aware that Oklahoma's unemployment 
rate is also higher than, say, the State of Virginia?
    Ms. Hofmeister. Yes.
    Mr. Russell. Okay. Thank you, Ms. Hofmeister. It's great 
having you here today.
    And thank you, Mr. Chairman. I yield back my time.
    Chairman Rokita. I thank the gentleman.
    Ms. Bonamici of Oregon is recognized for 5 minutes.
    Ms. Bonamici. Thank you, Mr. Chairman and Ranking Member 
Fudge.
    I'm really glad that part of our discussion here today is 
how we uphold that civil rights legacy that was the original 
intent of the Elementary and Secondary Education Act. And, 
certainly, from all the work that we've done in this committee 
and the conference committee, there should be no question that 
the Every Student Succeeds Act is intended to carry on that 
legacy so that all students have access to high-quality 
education.
    ESSA advances this promise by continuing to target 
resources to underserved public schools; by committing Federal 
funds to supplement, not supplant, local investments; by 
requiring States to measure the progress of every student and 
hold each to high standards; by expecting States to identify 
when some students are lagging behind their peers; and also by 
requiring States to take meaningful steps to close opportunity 
and achievement gaps when they're identified.
    Now, without question, No Child Left Behind largely missed 
the mark. It identified too many schools for intervention and 
prescribed interventions that were too rigid. But we shouldn't 
forget why Congress passed No Child Left Behind. Before that 
law, some groups of students, like students with disabilities, 
could effectively disappear in some States' school systems. So 
setting parameters to guarantee each child's right to 
opportunities in public education is fundamentally a Federal 
responsibility.
    So I respectfully disagree when some people say, as I 
believe is in Dr. Wilson's testimony, that Every Student 
Succeeds Act intends for States to be solely responsible for 
decisions regarding accountability. I don't see that as 
accurate.
    The law establishes a lot of conditions to make sure 
accountability systems reflect the intent of Congress to 
identify and require action in schools where students are being 
underserved. That's how Congress advances equity in education. 
And the Department of Education does have a clear role to play 
in interpreting statutory language and establishing parameters, 
consistent with the law and within the scope of the law, of 
course, as has always been the case.
    I want to begin by dispelling a rumor that the Every 
Student Succeeds Act somehow nullifies the Department of 
Education's enforcement authority under the General Education 
Provisions Act, GEPA.
    So I'm going to ask Mr. Talbert and Ms. Almazan, can you 
point to any provision in the Every Student Succeeds Act that 
would alter, limit, or erode the U.S. Department of Education's 
authority, as granted under GEPA, to enforce compliance with 
Federal education law?
    Mr. Talbert. The General Education Provisions Act certainly 
provides authority to the Department, you know, to take 
enforcement actions if necessary. And so that remains even with 
ESSA.
    Ms. Bomanici. Do you agree, Ms. Almazan?
    Ms. Almazan. I do agree. And going all the way back to the 
Administrative Procedures Act of 1946, absolutely.
    Ms. Bomanici. All right.
    Now, in too many schools in my home State of Oregon and 
across the country, students don't have access to the resources 
they need, whether that's advanced coursework, adequate 
technology, classes in career and technical education, arts, 
STEM, et. cetera. So the ESSA aims to close these gaps by not 
only providing extra Federal resources but also promoting more 
equitable allocation of State and local resources to low-
performing schools that do need additional support to improve.
    So is the statutory language in the ESSA clear enough to 
ensure that equitable resources reach the schools that need the 
most support? And what can the Department do in the regulations 
to ensure that those States and districts are addressing 
persistent resource inequities, as intended by Congress?
    I'll ask Ms. Almazan that question.
    Ms. Almazan. Well, I do think the 1,062 pages--it is clear 
that the Department of Education retains the authority to 
regulate.
    I would have to get back to you on those specific items, 
but we did enumerate in our written testimony those items that 
we do want to see strengthened in Title I of the ESSA. And I 
also do want to draw your attention to that, it is on page 5, 
beginning on page 5 of our comments, our written testimony. And 
I touched on some of them in the oral testimony.
    But we are really looking for rigorous and consistent 
standards. We're looking for the strict State limit of 1 
percent of all students. We are looking for definitions and 
parameters for those new statutory terms, such as ``meaningful 
differentiation,'' ``substantial weight,'' ``much greater 
weight.'' I think that the Department has--we would need the 
guidance from the Department on those areas.
    And looking at the history of going back to 1994 and No 
Child Left Behind and--
    Ms. Bomanici. I'm sorry, Ms. Almazan. I'm going to try to 
get one quick question in, and I'm going to ask Dr. Wilson.
    Probably have to submit your response for the record, but 
you've named the many benefits of local control, but that has 
some risks, too. Whether when you look at expectations for 
students in Hartselle--I hope I said that right--with under 10 
percent of students of color and 30 percent low-income 
students, that might be different for districts where there are 
large concentrations of low-income students.
    So how can we make sure that States and districts will not 
take advantage of flexibility to lower expectations for some 
groups of students, especially in vulnerable communities?
    And because my time has expired, I'm going to ask you to 
submit the response.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Bonamici. I thank the chair.
    Chairman Rokita. The gentlelady's time has expired.
    The gentleman from Pennsylvania is now recognized for 5 
minutes.
    Mr. Thompson. Thank you, Chairman.
    Thanks to all the members of the panel for being here.
    It's an exciting time, with what we've done with repealing 
No Child Left Behind, now with ESSA. We need to be working 
hard. And I appreciate the chairman doing this, because our job 
is oversight. Because without oversight, we will not achieve 
some of our intent that we had with ESSA that I find people are 
universally, whether it's parents, kids, teachers, 
administrators, school board members, are very, very excited 
about.
    Clearly, we're all accountable for our children and for all 
aspects, including education. And I appreciate the trust that 
we have shown in this body and in Congress and with the 
President signing the legislation in really pushing the 
authority, the flexibility, and the control to the State 
levels.
    My request of all of our friends who work in State 
capitals: have that same trust. Push that to the local level 
because they know--it's their children. They don't want their 
children to fail. They want their children to thrive. They want 
their children to get the type of education to where they can 
get great jobs, find those jobs in their home communities, and 
raise our grandchildren.
    I've always believed that there's many different pathways 
to success in life, not just a 4-year institution. I'll do my 
best to work to try to make that affordable and accessible, but 
career and technical education. I've got a son and a daughter-
in-law who have done great things in their education, earned it 
in the military. Many different paths. Enter right into the 
workforce.
    Dr. Wilson, in your testimony, you mentioned the importance 
of meeting the needs of students who are looking to embark on 
all different types of career pathways. And as co-chair of the 
Career and Technical Education Caucus, I believe that the 
preparation of our students for the 21st-century workforce and 
21st-century jobs is vastly important.
    Now, how will local flexibility give educators the tools to 
empower students to develop more well-rounded leadership, 
academic, and technical skills?
    Mr. Wilson. Thank you, Mr. Congressman.
    We live in the Huntsville area. Huntsville was just 
recently named one of the top three metro areas of its size in 
the United States. It has a wonderful economy, growing very 
quickly. We're in workforce region development 2 in the State 
of Alabama. Part of my job is to understand the types of jobs 
that my students, when they graduate, will be receiving and 
going into those places. It's my job to do that.
    I work closely with Dr. Philip Cleveland, who is over 
workforce development and career tech at the State department, 
and he is boots on the ground. He comes out, makes sure that we 
know what's going on in our areas. Our seven county areas, 
we're competing to get our kids ready for those jobs. I don't 
want those jobs to have to be outsourced. So it's part of my 
job to do whatever I need to do within my curriculum to make 
sure, if we need some pipefitters on the Tennessee River area, 
we've got a way to get a pipefitter teacher. We've got welding 
teachers that do the very same thing.
    We want every one of our children, when they graduate, if 
they want to graduate and not go to college but go into the 
workforce, to be able to graduate with a certification of some 
sort. We have EMT on our campus beginning next year. We're 
looking at putting in CNA, Certified Nursing Assistant. If 
someone wants to go into the nursing, we have a wonderful 
health occupational academy that puts the kids out into the 
nursing field. They can graduate and already be a CNA and be 
working as they go to college at the same time.
    So that's some of the flexibility that's provided to us. 
But going back to what was said earlier, it's about leaders and 
leadership capacity within the district to take that 
flexibility and go with it. You have to be willing to do that. 
And ESSA is providing us that opportunity to do that.
    Mr. Thompson. Have you--and my gut instinct is I don't 
think that a lot of our school districts have done this yet, 
but there's a couple of great resources out there. I was 
wondering if you have partnered with them yet.
    First of all, the workforce investment boards who--that was 
in 2014. This brought put some great leadership into the 
Workforce Innovation and Opportunity Act. And we put a real 
emphasis on those aged 16 to 29 for the first time, the 
barriers they have to entering the workforce. I'd like to see 
our school districts partner more in a more robust way.
    And just recently something I discovered, despite being the 
chairman of our Agriculture Subcommittee, is our office of 
rural economic development with USDA has monies and programs 
designed around training and retraining of workforce as well 
as, basically, workforce needs. And I think both those maybe 
would be great resources and be a great collaboration.
    So I guess I'll ask if you're familiar with that. And if 
you're not, I would just encourage all school districts to 
check those out.
    Mr. Wilson. We work closely with workforce development 
opportunities in Decatur-Morgan County area and with 
Huntsville. And I will look up that and make sure that we're 
working with those, as well.
    Mr. Thompson. Yeah. USDA was brand-new to me as of last 
week, with a forum I hosted. We had about 80 folks come out, 
and it was pretty exciting to find out what opportunities are 
there that most people don't know about.
    Thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentleman.
    The gentlelady from Massachusetts, Ms. Clark, is recognized 
for 5 minutes.
    Ms. Clark. Thank you, Mr. Chairman.
    And thanks to all the panelists for being with us today.
    My question first is for you, Ms. Almazan. I am very 
concerned with some of the aversive behavior punishments that 
we see, including seclusion, restraint, expulsion, suspensions, 
which disproportionately affect students of color and students 
with disabilities. In Massachusetts, just in the last school 
year, we had 603 preschoolers suspended from their programs.
    I'm very grateful; we fought hard to have many of the 
trauma-informed practices included in the ESSA. And can you 
speak to COPAA's regulatory recommendations in this area?
    Ms. Almazan. Sure.
    COPAA has had a statement of principles for quite some time 
on restraint and seclusion, and it is something that COPAA has 
been integrally involved in for quite some time, particularly 
working with Congressman Van Hollen in the introduction of the 
Keeping All Students Safe Act. That has been introduced, I 
think, every session since 2009.
    The statistics, if you just look at the GAO study back from 
2008 or 2009, are horrific, and the effect on children of being 
restrained or secluded in the manner that they're being 
restrained and secluded are very alarming.
    I looked at that data recently from your home State and was 
really shocked to see how many students had been suspended and 
expelled for behavior that is just typical, particularly for 
children of color. I have been a practicing attorney for nearly 
30 years and primarily represent families of color, families 
who live in poverty, and it is always stunned me that they are 
disproportionately affected by these practices.
    We know all of the horrific things that can happen to 
children when they are restrained or when they are secluded. We 
know that schools at times are not equipped to manage behavior 
in a way that is authentic and that looks at the circumstances 
that the students come from. I think that looking at the 
trauma-informed practices is very important, something that, 
frankly, we are all just learning about.
    I think that, very importantly, we have now raised to a 
national discussion the student resource officers in our school 
buildings with the effect of cellphone cameras, and we can see 
what those of us who have been on the ground representing 
families for many years have seen always in police reports and 
in expulsion proceedings and in discipline proceedings. Those 
cellphone videos expose for the world what those of us who have 
been in the trenches in civil rights have seen for many, many 
years.
    Ms. Clark. And you said in your testimony that, often, the 
effect of no regulations means that the courts are left to be 
the experts. How do you see that particularly working if there 
weren't any further regulations in this area for families?
    Ms. Almazan. Well, we have a whole rich history in the 
Rehabilitation Act of 1973, when there was a statute, a civil 
rights statute, for people of disabilities that talked about 
people who are otherwise qualified, talked about people with 
disabilities, talked about reasonable accommodations, and we 
had no regulations, and people were forced to go to court, and 
courts were trying to interpret the statute. There were no 
regulations interpreting it.
    And the disability community took a page from the civil 
rights community and staged a takeover of a Federal building 
for 28 days in San Francisco until they could get their 
regulations from HEW. And as a matter of fact--
    Ms. Clark. Thank you so much. I want to get one question 
in--
    Ms. Almazan. Thanks.
    Ms. Clark.--for Mr. Talbert.
    During your tenure as general counsel, regulations were 
promulgated that gave States more flexibility to exempt 
recently arrived English learners from State assessments. This 
was an allowance that was clearly not defined in statute.
    Would it be fair to limit the Secretary's authority to 
issue regulations that actually provide more flexibility in key 
areas? And how is this any different from the Secretary's 
authority to issue other clarifications or interpretations of 
existing statute?
    And you may have to respond in writing, since I'm about to 
expire.
    Mr. Talbert. Sure. I'll be happy to supplement my response 
in writing. But, again, in essence, you see what the text says, 
and then if it needs clarifying, if there's some ambiguity, 
then there may be a need to write a regulation to deal with 
that.
    With respect to guidance, if the Department sought to issue 
guidance, they, again, would need to make sure that is within 
the contours of the text of the statute and that it doesn't 
stray beyond into making new law, so to speak.
    But I'd be happy to supplement.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Ms. Clark. All right. Thank you.
    Chairman Rokita. The gentlelady's time has expired. I thank 
the gentlelady.
    The gentlelady from California, Mrs. Davis, is recognized 
for 5 minutes.
    Mrs. Davis. Thank you. Thank you very much, Mr. Chairman. I 
appreciate that. I'm doing a ranking over in the other 
committee, and so I appreciate being able to come in and have a 
chance to hear from all of you.
    Mr. Wilson, if I might just ask you more about this, 
because I know on the Web site in your school district it 
states that the student population is a tremendous 
representation of diversity in ethnicity and socioeconomic 
levels, having approximately about 7 percent minority and 30 
percent qualifying for free and reduced lunch programs, and, 
also, school districts across your State enroll more than about 
40 percent minority students and 50 percent low-income 
students. So I really wanted to ask you more about that.
    And from San Diego Unified School District--that's the 
largest city that I represent. I actually served on that board 
for 9 years quite a few years ago. And nearly about 60 percent 
of the students there are low-income. More than a quarter of 
the district's enrollment is limited English proficient.
    We know that history has really told us strong Federal 
guardrails to hold systems accountable for improving outcomes 
for all students - low-income, students of color--are sometimes 
ignored. And even from my own experience a number of years ago, 
I know that sometimes we're--we want to make sure that we're 
giving to all groups, whether or not they are the ones who are 
most vulnerable at any particular time.
    So you have testified that the role of the Federal 
Government is to simply support public schools by equally 
applying broad flexibility. And in that, as I understand it, 
there was no mention of the Federal Government's role in 
promoting educational equity.
    So part of my question is whether you feel that, at least 
from what your experience has been, that equity has been 
achieved, and that we don't really need to focus like a laser, 
I guess, on this issue. And I'm wondering whether we can learn 
from communities that are more homogeneous and well-resourced, 
whether or not they are really representative of our Nation's 
public schools today.
    Mr. Wilson. Thank you.
    Schools are microcosms of the communities they represent. 
The diversity we have in Hartselle is the diversity we have in 
Hartselle because it is the footprint of Hartselle.
    I was a principal at Homewood High School, and Homewood 
High School is a suburban area just contiguous to Birmingham 
and had diversity--one would look at that diversity, and be 
very clear from the traditional sense of what is diversity--60 
percent, 25 percent, 10 percent, so forth and so on. When one 
looks at our diversity and sees 90 percent and then 10 percent 
of everything else, that is putting diversity back in the box 
over traditional diversity.
    We have a lot of transients, as well, that's not spoken and 
not seen in that diversity. That's the biggest issue we face. 
The biggest issue we face is the child who comes to us 1 month 
and then 3 months later goes somewhere else and then 3 months 
later comes back to us. We deal with those kids on a regular 
basis.
    Mrs. Davis. And, of course, in many of these districts that 
are so heterogeneous, they have that issue, as well.
    Mr. Wilson. That's exactly right.
    Mrs. Davis. That's a basic part of it.
    Mr. Wilson. And to answer your question, it's an answer 
that you've got to pinpoint the places where it's not working. 
And that's where extra care and concern has to go from either 
the local group, the State group. And if that doesn't work, 
that's when the Federal steps in.
    Mrs. Davis. Uh-huh. So you do see a Federal role in that.
    Mr. Wilson. As I stated, there certainly is a role for the 
Federal. But the boots on the ground at the local level and the 
State level is where, I believe, having been in my situation--
    Mrs. Davis. Well, what would you like to see the State 
doing then?
    Mr. Wilson. I would like what the State's doing, 
essentially what the ESSA's doing: saying to local leaders, go 
out there and meet the needs and exceed the needs of the 
students in your area. Meet those needs. That's what you want 
to see.
    You want to see the ability to go out there and let that 
leadership capacity--don't hold me back, don't grab me, okay, 
because I'm wanting to move forward because everybody else 
isn't moving forward. At the same time, we're going to have to 
figure out a way to prod those who won't move forward.
    Mrs. Davis. Yeah. And do you see that sometimes that means 
really difficult challenges or decisions that have be made to--
    Mr. Wilson. It's the most difficult--
    Mrs. Davis.--remove--
    Mr. Wilson. It's the most difficult challenge.
    Mrs. Davis.--services in some cases--
    Mr. Talbert. It really is.
    Mrs. Davis.--from other students?
    Mr. Wilson. Yes, ma'am.
    Mrs. Davis. Okay. Thank you very much, sir.
    Chairman Rokita. I thank the gentlelady.
    The gentleman from Colorado, Mr. Polis, is recognized for 5 
minutes.
    Mr. Polis. Thank you so much, Mr. Chairman.
    My first question is for Mr. Talbert.
    In your judgment, did the Department under the previous 
authorizing law, No Child Left Behind, promulgate any 
regulations that resulted in new requirements that were 
inconsistent with or outside the scope of No Child Left Behind?
    Mr. Talbert. Yeah, it's a hard question to answer, to think 
back to everything we did--
    Mr. Polis. That you're aware of.
    Mr. Talbert.--you know, during that period. I mean, I can't 
say with certainly, but that--you know, that I'm aware of.
    Mr. Polis. And, again, I think you touted in your testimony 
some of the provisions around ensuring that the Federal 
Government is prohibited from being involved with any 
requirement, direction, or mandate to adopt the Common Core 
standards.
    Where that prohibition didn't exist under the previous 
authorizing law, do you agree, also, that there was no specific 
authority given for the Department to interfere with those 
decisions under the previous authorizing law either?
    Mr. Talbert. Correct. But they did have conditional waivers 
wherein certain conditions were added to waiver requests. And 
so there were certain things where--
    Mr. Polis. And, reclaiming my time, of course, the waiver 
authority wound up being what we used because of the failures 
in the underlying accountability metrics of the law. It 
essentially all became a waiver law. I don't think that was the 
original intent of Congress. That's why we're all grateful that 
we're here replacing it.
    I'd be happy to yield if you wanted to address that.
    Mr. Talbert. Sure. Sure. But, again, I mean, the waiver 
authority, it exists to waive provisions. It does not exist to 
affirmatively add new conditions or requirements. And that was 
what was taking place.
    Mr. Polis. And my next question is for Superintendent 
Hofmeister.
    I'm sure you're aware of research from the University of 
Oklahoma and Oklahoma State that showed that Oklahoma's waiver 
accountability system, ``hid low test performance of poor and 
minority students''.
    In your argument, you testify with an argument for 
flexibility granted by waivers that allows you to strengthen 
accountability measures and that you need more flexibility 
under ESSA.
    How can we be sure that Oklahoma and also, more generally, 
any State is using the flexibility for the right reasons rather 
than the wrong reasons? How can we ensure that you and other 
superintendents at the State level don't take advantage of the 
flexibility to sweep low performance of some subgroups of 
students under the rug?
    Ms. Hofmeister. Well, thank you very much, Congressman. And 
I think what you must look at is what we have done. I 
commissioned that study.
    Mr. Polis. And I'm not asking--I don't mean this in an 
accusatory way. I mean, at the Federal level, how can we make 
sure that States are not using the flexibility for the wrong 
reasons?
    Ms. Hofmeister. I think the way you examine whether that is 
working is to hold States accountable for results for students. 
And that includes students in our protected groups. That is 
where we need to have a greater flashlight.
    And we've got to be able to keep up with the, you know, 
ways to view that and then respond with the most research-
based, new, if that is needed, intervention. But it's got to be 
acting on evidence, not anecdotal information or not 
perception. And I believe that we will do that. We are eager to 
do that. These are our kids. These are our--the future of our 
State.
    Mr. Polis. And, again, I mean, at the State level--and, 
obviously, many of your district superintendents would say, 
``we at the district level''; at the building level, they'd 
say, ``we at the building level.'' But we, obviously, here on 
this panel at the Federal level, how do we, in dealing with the 
States, make sure that a State superintendent, a State 
commissioner is not using the flexibility for the wrong reasons 
to kind of mask low performance of minority students?
    Ms. Hofmeister. Well, I think that we have to accept the 
fact that at the State level I am held accountable to the 
people of the State of Oklahoma. And that is the way this works 
at the State level for each different State.
    Mr. Polis. Well, reclaiming my time, the fundamental 
problem with that, and getting back to the question of whether 
civil rights is a local, State, or Federal concern, is, yes, 
you're accountable to the voters in our State--we have a State 
board that are - um but you're not elected by a minority of the 
voters, you're elected by a majority of the voters, and yet 
you're accountable for the public education system that serves 
all students, including traditionally disenfranchised 
minorities and others, who may or may not have voted for you, 
may or may not have voted for other people that run in the 
race.
    So there's more to it than just politics. There's a civil 
rights aspect that transcends politics. And that, of course, is 
our Federal interest, as Dr. Wilson mentioned, as well.
    I want to go to Ms. Almazan for the last 15 or 20 seconds 
you'll have to answer this. But I wanted to ask about Title I 
regulations revolving alternative assessments and alternative 
achievement standards. Both Democratic and Republican 
administrations have found that allowing States some 
flexibility for students with disabilities has done this.
    What's at stake to make sure that we continue the proper 
accountability for students with disabilities? I think you'll 
have to submit that to me in writing, Ms. Almazan, but if we 
can talk about, in writing, that whole area of alternative 
assessments. And, of course, we maintain that cap in this new 
law.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Polis. I'm very grateful for the time, Mr. Chairman, 
and I yield back.
    Chairman Rokita. I thank the gentleman. The gentleman's 
time has expired.
    I'll recognize myself now for 5 minutes.
    It's been a very interesting discussion. I want to thank 
each and every one of our witnesses again for their testimony.
    I want to focus on Dr. Wilson's testimony and the exchange 
with Mrs. Davis from California. I want you to recognize that 
at the last few seconds she said: The only way sometimes that 
you can serve those that need it is by taking services away 
from others. And I want to make sure that it's recognized that 
was her opinion and not necessarily your testimony, unless it 
was, and then say so.
    Mr. Wilson. That was not my testimony.
    Chairman Rokita. Right.
    I also find it amazing that only here in Washington can a 
man put on his Web site that he wants to treat everyone equally 
and that somehow be a bad thing. It's ridiculous, in fact. And 
that's my opinion.
    Mr. Talbert, there was some discussion going on about the 
General Education Provision Act, and you were asked about that 
and how that did not, in fact, limit the Secretary's authority.
    I want to rehabilitate that discussion a little bit, 
because isn't it true that act is basically the jurisdictional 
provision for the Department? That is to say, the Department 
will focus on education issues. In no way does the GEPA somehow 
nullify or limit a more specific statute, if you want to talk 
about rules of construction, like ESSA that certainly, 
regarding specific areas, does limit the Secretary's authority 
just as Congress intended.
    Sir?
    Mr. Talbert. Correct. It doesn't nullify those very 
specific provisions that deal more directly with the issues you 
mentioned.
    Chairman Rokita. All right.
    And, by the way, while I have you, I had to cut you off 
because you were way too long, but is there anything in your 
written remarks that you want to take a minute right now to go 
and focus on?
    Mr. Talbert. Nothing, other than just to reinforce the 
whole theme of the law, which is more State and local control. 
That, indeed, when the Department was first set up in 1979-
1980, that was some of the--the findings and the purpose 
statements of that law specifically provided that, that State 
and locals have primary responsibility for education and that 
the Feds supplement that.
    Chairman Rokita. Uh-huh. Thank you.
    And since you have experience in the Department--and I've 
been listening to this exchange about clarifying things. In 
your experience at the Department, when you were there, was 
there ever a culture where you all took a perfectly defined 
part of the law, something that was specifically defined, and 
reinterpreted it, ignored it, or did something other than 
simply clarify ambiguous parts of the law?
    Mr. Talbert. No. You take the law as you have it, and then 
you seek to implement it to the best of your ability. And if 
it's necessary to clarify, you clarify it as well.
    Chairman Rokita. Right. When it's necessary to clarify, not 
when it doesn't suit your political ideology?
    Mr. Talbert. Correct.
    Chairman Rokita. Okay. And it's your opinion that the 
culture has changed at the Department in that regard or not?
    Mr. Talbert. I'm not quite--
    Chairman Rokita. And you've got clients before the 
Department, so I understand the sensitivity there, but I'd 
appreciate an honest answer.
    Mr. Talbert. Sorry. Can you rephrase the question?
    Chairman Rokita. I'm known to be pretty direct, so I'm not 
sure I can do that.
    Let me go here. You mentioned negotiated rulemaking.
    Mr. Talbert. Right.
    Chairman Rokita. Is that a change from No Child Left 
Behind? And if so, what might we expect differently?
    Mr. Talbert. Well, sure, there are some changes in the 
statute as to negotiated rulemaking and the requirement that, 
once they come up with a rule, they need to submit it to the 
committees so that they can see it and look at it before it 
then goes public in the Federal Register. That's certainly one 
change.
    Chairman Rokita. Okay. And that's different around here 
how, specifically? How is it usually done?
    Mr. Talbert. Well, there was no previous provision. I mean, 
they could go straight from negotiated rulemaking--once they 
get a consensus, they could go straight and publish it in the 
Federal Register with an NPRM without having to first check 
in--
    Chairman Rokita. Notice of proposed rulemaking, for those 
watching at home. Right? NPRM.
    Mr. Talbert. Yes, notice of proposed rulemaking.
    Chairman Rokita. All right. And so this was a good change 
and reform and improvement, or not?
    Mr. Talbert. Well, it gives a role for Congress, actually, 
in making sure that it follows the intent of the law.
    Chairman Rokita. Right. Thank you.
    In the time I have left, I will ask if Ms. Hofmeister from 
Oklahoma would like to add anything to the discussion she's 
heard.
    Ms. Hofmeister. Thank you very much, Chairman.
    This is about equity. It's about an equity issue for all 
kids to close achievement gaps, to close an opportunity gap 
that exists. And we at the State level stand ready to lead in 
that effort.
    Chairman Rokita. I thank you.
    I'll yield the balance of my time and recognize the ranking 
member for any closing remarks.
    Ms. Fudge. Thank you very much, Mr. Chairman. I'd like to 
yield to the ranking member, Mr. Scott.
    Mr. Scott. Thank you.
    Mr. Chairman, previously in the hearing, the gentleman from 
Oklahoma made some disparaging remarks about what he called the 
State of Virginia. I'd just like to indicate that the 
Commonwealth of Virginia did extremely well and, actually, 
better than Oklahoma on the NAEP test, which is the standard 
for comparing jurisdictions across the country.
    And I'd like to enter into the record the scores of each of 
the States. Virginia actually did better on each of the 
standards that he mentioned during his testimony.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Scott.I yield back.
    Ms. Fudge. Thank you very much.
    Reclaiming my time, Mr. Chairman.
    Let me first thank you all for being here.
    Certainly, I do agree that States need to be held 
accountable, which does, in fact, require an oversight role. 
But let me also say that there are a lot of problems in our 
States that have nothing to do with flexibility, absolutely 
nothing. We put kids in crumbling buildings. We have class 
sizes that are too large. States continue to cut funding for K-
12 education. A lot of what is wrong with our schools has 
nothing to do with flexibility.
    But I do agree that there is a role. Now, hopefully that 
role is limited, but it is clearly authorized and it is clearly 
necessary that the Federal Government ensures that every child 
has a right to a quality education.
    I yield back, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady.
    Let me thank our witnesses again. I appreciate your 
passion. I appreciate your expertise, each one of you, in what 
you've brought to the table so far in your careers and what's 
going to be expected of you going forward.
    We will be here. We will be here as partners, perhaps. 
Maybe that's not the right word; maybe it is. But we will be 
doing our congressional oversight function.
    I think this law, as one of the authors of it, moved the 
ball down field a significant amount, in terms of having 
Congress, Mr. Talbert, write its laws with more specificity so 
that there's less for the agency to do--let's put it that way--
or less that they should do.
    I think the ball has moved down the field in the fact that, 
yes, accountability, we agree, as parents, as taxpayers, as 
voters, as leaders, elected or not, accountability is a good 
thing in life.
    But, Ms. Hofmeister, it's going to be up to you now to 
decide what success is and what it looks like. And you'll be 
held accountable to your voters and taxpayers.
    And you, too, Dr. Wilson.
    And that's the goal here. And we expect it to work well, we 
want it to work well, because we're all in this together for 
the very same reasons: to have the next generation better off 
in every respect than we were so that they can fight and serve 
in a 21st-century world and win. And, again, that's what brings 
us here today.
    I'd ask unanimous consent to insert in the record a letter 
sent this morning from a coalition of groups, the State and 
Local ESSA Implementation Network, to Acting Secretary John 
King, urging him to honor that congressional intent that I just 
spoke of and that we talked about it here this morning.
    The letter is signed by the National Governors Association; 
the National Conference of State Legislatures; the National 
Association of State Boards of Education; the National School 
Boards Association; AASA, The School Superintendents 
Association; the National Association of Elementary School 
Principals; the National Association of Secondary School 
Principals; the American Federation of Teachers; the National 
Education Association; and the National PTA.
    The letter states, quote, ``ESSA is clear: Education 
decision-making now rests with the States and districts, and 
the Federal role is to support and form those decisions.''
    So, with no objection, I'll enter this into the record.
    Hearing no objection, the letter is inserted.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. And, with that, I have no further business 
before the committee, and we are adjourned.
    [Additional submission by Ms. Fudge follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                          [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
